April 17, 2020
Via ECF
Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: BP p.l.c., et al., v. Mayor and City Council of Baltimore, No. 19-1189
Motion to Extend Time to File Response to Petition for Writ of Certiorari
Dear Mr. Harris,
The undersigned is counsel of record for Respondent, Mayor & City Council of Baltimore
(“City”), in the above-referenced matter. The Petition for a Writ of Certiorari was filed and
docketed on March 31, 2020. The City’s response is currently due April 30, 2020.
The City and its counsel are experiencing operational disruptions due to the ongoing
COVID-19 pandemic and the “stay at home” orders issued by state and local governments in
response to the pandemic. Because of those disruptions, and pursuant to Rule 30.4 of the United
States Supreme Court and the Court’s Miscellaneous Order of March 19, 2020, the City requests
a sixty (60) day extension of time to file a brief in opposition to the Petition. The City has met and
conferred with counsel for Petitioners, which have consented only to a thirty (30) day extension.
The Baltimore City Law Department and all its staff are based in Baltimore, Maryland. On
March 18, 2020, Mayor Bernard C. “Jack” Young declared a State of Emergency in Baltimore,
and ordered in relevant part that all City employees, including Law Department attorneys, work
from home with few exceptions. On March 30, 2020, Governor Lawrence Hogan issued Order
No. 20-03-30-01, stating that “[a]ll persons living in the State of Maryland are hereby ordered . . .
to stay in their homes or places of residences” until the order is rescinded, with exceptions for
travel to and from certain essential businesses or to obtain essential goods and services. Maryland’s
Office of Legal Counsel has published interpretive guidance stating that “[l]awyers and law firms”
are within the scope of essential businesses exempted from the stay at home order. The instruction
that all City employees work from home, along with increased extraordinary work to assist the full
City government in its multi-faceted response to the pandemic, has nonetheless created substantial
disruption to the Baltimore City Law Department’s day-to-day operations. No end date for either
the Mayor’s Declaration or the Governor’s Order has been projected and it is unclear at this time
when the restrictions will be lifted or eased.
Counsel of record for the City is based in San Francisco, California. On March 19, 2020,
Governor Gavin Newsom issued Executive Order N-33-20, which remains in effect, directing “all
individuals living in the State of California to stay home or at their place of residence” with certain
exceptions for essential critical infrastructure workers and for activity to obtain essential goods
100 Montgomery Street, Suite1410 − San Francisco, CA 94104

Office: (628) 231-2500 − sheredling.com

Scott S. Harris
Clerk of Court
April 17, 2020
Page 2
and services. On March 16, 2020, the City and County of San Francisco similarly issued Order of
the Public Health Officer No. C19-07, “requir[ing] all individuals anywhere in San Francisco to
shelter in place—that is, stay at home—except for certain essential activities and work” from
March 17, 2020, through April 7, 2020. Law firms and “elective” legal services are not exempted
from the order. Six other local governments in the San Francisco Bay Area issued parallel orders
on the same day. Violation of any of those orders is a misdemeanor, “punishable by fine,
imprisonment, or both.”
On March 31, 2020, the City and County of San Francisco issued Order of the Public Health
Officer No. C19-07b, which superseded the prior order and stated that “[a]ll businesses . . . are
required to cease all activities at facilities located within the County [of San Francisco]” through
May 3, 2020, excepting certain “essential businesses” and “operations consisting exclusively of
owners, employees, volunteers, or contractors performing activities at their own residences (i.e.,
working from home).” Again, six other local governments issued parallel orders that day extending
the duration of their own “stay at home” orders. These orders have created substantial disruption
to counsel’s day-to-day operations.
At this time neither the State of California nor the City and County of San Francisco have
indicated when current restrictions on counsels’ activities are likely to be lifted. During a daily
news briefing on April 14, Governor Newsom stated that there is “no timetable” for “when
normality is going to come back,” and that the State will not begin to assess when it may ease
restrictions until at least the first week of May. He further stated that any reduction in restrictions
will be gradual and piecemeal: “There’s no light switch here. It’s more like a dimmer.” It therefore
appears virtually certain that the state and local stay at home orders and accompanying business
limitations will remain in place until mid-May at the earliest, and likely longer.
For these reasons, the City requests a sixty (60) date extension of time to file a brief in
opposition to the Petition for a Writ of Certiorari in the above-referenced matter, from April 30,
2020, to June 29, 2020.
Respectfully submitted,
/s/ Victor M. Sher
Victor M. Sher
Sher Edling LLP
Counsel of Record for Respondent
Mayor and City Council of Baltimore

cc: All Counsel of Record

